NO:

IN THE SUPREME COURT OF THE UNITED
STATES

Myron Hubbard
Plaintiff - Appellant
v.
Missouri Department of Mental Health
Defendants - Appellees

PETITION FOR WRIT OF CERTIORARI FROM
THE UNITED STATES COURT OF APPEALS FOR
THE EIGHTH CIRCUIT No: 19-2341

Myron Hubbard, pro se
211 Brook Pines Dr Apt 12108
Columbia, SC 29210
314-324-1274

1

The questions presented for review are:
1. Whether the Court of Appeals and District
Courts breached its duty, departed from the
accepted and usual course of judicial
proceeding and is of such imperative
importance as to call for an exercise of this
Court’s supervisory power, whether or not the
Defendants committed Fraud Upon the Court
and whether the Petitioner is entitled to relief
pursuant to The Law of Void Judgments?
2. Should the United States Supreme Court

assume Original Jurisdiction for misconduct
committed upon it and pursuant 28 U.S. Code
§ 1251 for state attorneys taking adverse
retaliatory actions against a citizen in another
state?

11

List of Parties, Petitioner/Plaintiff/Appellant
Petitioner is Myron Hubbard, a citizen of the United
States and currently temporarily residing at 211
Brook Pines Dr Apt 12108 Columbia, SC 29210.
Defendants/Appellee
At all times relevant to this matter, The
Defendants are the State of Missouri Department
of Mental Health, an executive department of the
State of Missouri, located at 1706 East Elm Street
Jefferson City, Missouri 65102, which St. Louis
Psychiatric Rehabilitation Center, a facility of the
Missouri Department of Mental Health, located at
5300 Arsenal Street St. Louis, MO 63139 and
Metropolitan St. Louis Psychiatric Center,
another facility of the Missouri Department of
Mental Health, located at 5351 Delmar Blvd, St.
Louis, MO 63112 are entities of, who are
represented by Eileen Ruppe Krispin Assistant
Attorney General of Missouri and Attorney
General of Missouri Eric S. Schmitt.

Ill

List of Proceedings by Year,
2019 and 2018
Docket No.
Court
8th Circuit U.S. Court of Appeals No: 19-2341
Case Caption
Myron Hubbard v. MO Dept, of Mental Health
Dates of Entries of Judgment
12/18/2019 and 10/24/2019
Docket No.
Court
Missouri Western District Court 2:18-cv-04201NKL
Case Caption
Hubbard v. Missouri Department of Mental
Health
Dates of Entries of Judgment
06/17/19, 05/06/19, 03/12/19 and Filed 12/19/18
Docket No.
Court
Circuit Court of Cole County,Missouri 18ACCC00330
Case Caption
Myron C Hubbard v Department of Mental
Health
Dates of Entries of Judgment
9/27/2018 Removed to Fed Court
2017 and 2016
Court

Docket No.

Supreme Court of the United States No. 16-1226

IV

Case Caption
Myron Hubbard v. Missouri Department of
Mental Health, et al.
Dates of Entries of Judgment
07/17/2017 and 05/30/2017
Court

Docket No.

8th Circuit U.S. Court of Appeals No: 16-1507
Case Caption
Myron Hubbard v. Missouri Department of
Mental Health, et al.
Dates of Entries of Judgment
12/15/2016 and 10/24/2016

Docket No.
Court
Missouri Eastern District Court 4:15-cv-00722RLW
Case Caption
Hubbard v. Missouri Department of Mental
Health
Dates of Entries of Judgment
02/12/16
Court
Docket No.
22nd Circuit Court St. Louis, Mo 22047-02616-03
Case Caption
MOFSDCSE VS HUBBARD F-171354-1
Dates of Entries of Judgment
08/09/2016
2015, 2014 and 2013
Docket No.
Court
Supreme Court of the United States No. 13-10695

V

Case Caption
Myron Hubbard v. St. Louis Psychiatric
Rehabilitation Center, et al.
Dates of Entries of Judgment
02/23/2015 and 11/10/2014
Docket No.
Court
8th Circuit U.S. Court of Appeals 13-2877
Case Caption
Myron Hubbard v. St. Louis Psychiatric Rehab,
et al
Dates of Entries of Judgment
03/17/2014 and 02/11/2014
Docket No.
Court
Missouri Eastern District Court 4:ll-cv-02082
Case Caption
Hubbard v. St. Louis Psychiatric Rehabilitation
Center
Dates of Entries of Judgment
08/12/13

VI

TABLE OF CONTENTS
QUESTIONS PRESENTED

1

LIST OF PARTIES

11

LIST OF PROCEEDINGS

m

TABLE OF CONTENTS

vi

TABLE OF AUTHORITIES

vm

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED......................

1

STATEMENT OF THE CASE

2

FACTS GIVING RISE TO THIS CASE

4

REASONS WHY CERTIORARI SHOULD BE
GRANTED.........................................................

5

A. Review is warranted, since the Court of
Appeals and District Courts breached its

Vll

duty, departed from the accepted and usual
course of judicial proceeding and is of such
imperative importance as to call for an
exercise of this Court’s supervisory power,
in addition, the Defendants committed
Fraud Upon the Court and the Petitioner is
entitled to relief pursuant to The Law of
5
Void Judgments
B. The United States Supreme Court should
assume Original Jurisdiction for
misconduct committed upon it and
pursuant 28 U.S. Code § 1251 for state
attorneys taking adverse retaliatory
actions against a citizen in another
state ................................................................. 35
Conclusion

37

Index of Appendices
The U. S. Court of Appeals for the 8^ Circuit
Order and Judgment for Appellate Case: 19-2341
.................................................................... Appendix A
The U.S. District Court for the Western District of
Missouri Central Division Order Case 2:18-cv04201
Appendix B
The U. S. Court of Appeals for the 8^ Circuit Per
Curiam for Appellate Case: 16-1507....Appendix C

Vlll

The United States District Court Eastern District
of Missouri Eastern Division Memorandum and
Order in the previous Case 4:15-cv-00722
.Appendix D
The U. S. Court of Appeals for the 8^ Circuit
Opinion in the previous Case 0:13-cv-02877
Appendix E
Constitutional and Statutory Provisions
Appendix F
Involved
Tables of
Authority
Table of Cases and Other
Writings
[see all Court records, cases 4:ll-cv02082, 0:13-cv-02877, 4:15-cv-00722, 0:16cv-01507, 2:18-cv-04201, No. 16-1226 and
No. 13-10695]
18 U.S. Code § 1001
28 U.S.C. § 1251(b)
Action Marine, Inc. v. Continental Carbon, Inc., 243
F.R.D. 670, 68 Fed. R. Serv. 3d 1326 (M.D. Ala.
2007)
Alexandre v. Machan. 147 U.S. 72, 77, 13 S. Ct. 211,
213, 37 L. Ed. 84 (1893)
Allcock v. Allcock, 437 N.E.2d 392 (Ill.App.3 Dist.
1982).

IX

Apotex Corp. v. Merck & Co., 507 F.3d 1357, 1360
(Fed.Cir.2007) In re NWFX. Inc.. 384 B.R. 214, 220
(Bankr. W.D. Ark. 2008).
Arista Records, L.L.C. v. Tschirhart, 241 F.R.D. 462
(W.D. Tex. 2006)
Atkins v. Fischer, 232 F.R.D. 116, 63 Fed. R. Serv.
3d 682 (D.D.C. 2005)
Bates v. Board of Education, Allendale Community
Consolidated School District No. 17, 136 Ill.2d 260,
267 (1990)
Berger v. Security Pacific Info. Sys., Inc., 795 P.2d
1380, 1385
Blackmon v. American Home Products Corp. United
States District Court, S.D.
BODDICKER v. ESURANCE INC. No. CIV. 094027-KES. 770 F.Supp.2d 1016 (2011) United States
District Court, D. South Dakota, March 2, 2011
Bond v. U.S. Mfg. Corp., No. 09-CV-11699, 2010 U.S.
Dist. LEXIS 77342, at *8 (( E.D. Mich. July 30,
2010))
Chambers v. NASCO, Inc., 501 U.S. 32, 111 S. Ct.
2123, 115 L. Ed. 2d 27, 19 Fed. R. Serv. 3d 817
(1991)
15 CSR 60-9.110
15 CSR 60-9.090
Colo. Ct. App. 1990 (elements of fraudulent
concealment)
Columbia/HCA Healthcare Corp. v. Cottey, 72
S.W.3d 735, 744 (Tex.App.-Waco 2002, no writ)

X

Constance v. B.B.C. Development Co., 25 S.W.3d 571
(Mo. Ct. App. W.D. 2000)
Courtney v. Feldstein, 147 Mich. App. 70, 74 (Mich.
Ct. App. 1985).
Am. Jur. 2d, Contempt §§ 1 et seq
Dick Bentley Productions Ltd v Harold Smith
(Motors) Ltd [1965] 1 WLR 623
Donnelly v. Frank Shirev Cadillac. Inc.. No. 05 C
3520, 2005 WL 2445902, at *2 (N.D. Ill. Sept. 29,
2005).
Duck Head Apparel Co., Inc. v. Hoots, 659 So. 2d
897, 904-05 (Ala. 1995)
Eagle Hosp. Physicians, LLC v. SRG Consulting,
Inc., 561 F.3d 1298 (11th Cir. 2009)
Estate of Wallace v. City of Los Angeles, 229 F.R.D.
163, 62 Fed. R. Serv. 3d 409 (C.D. Cal. 2005)
Eisert v. Town of Hempstead, 918 F. Supp. 601, 615
(E.D.N.Y. 1996)
Ex Parte Seidel, 39 S.W.3d 221, 225
(Tex. Crim. App. 2001).
Fharmacy Records v. Nassar, 248 F.R.D. 507 (E.D.
Mich. 2008)
Fusari v. Steinberg, 419 U.S. 379, 391 (1975)
§ 2:7.Elements of fraud—Representations:
Actionable—Fraud in the absence of representations,
Law of Fraudulent Transactions § 2:7

§ 2870 Fraud on the Court, 11 Fed. Prac. & Proc.
Civ. § 2870 (3d ed.)
37 Am. Jur. 2d Fraud and Deceit § 225

XI

§ 2870 Fraud on the Court, 11 Fed. Prac. & Proc.
Civ. § 2870 (3d ed.)
Fed. R. Civ. P. 8(b)(6) (effect of failing to deny)
Rule 11
Grummons v. Zollinger. 240 F. Supp. 63, 75 (N.D.
Ind. 1964), affd. 341 F.2d 464 (7th Cir. 1965).
H.K. Porter Co. v. Goodyear Tire & Rubber Co., 536
F.2d 1115, 1119 (6th Cir. 1976).
H.K. Porter Co. v. Goodyear Tire & Rubber Co., 536
F.2d 1115, 1119 (6th Cir.1976). citing Kupferman,
supra, at 1078, and Restatement. Judgments, sec.
126 comment (c) (Supp. 1948)
Halloran v. Blue & White Liberty Cab Co., 253
Minn. 436, 92 N.W.2d 794 (1958)
Haudenschilt v. Haudenschilt, 129 W. Va. 92, 39
S.E.2d 328 (1946)
Hines v. Foxwell, CIVIL ACTION No. JFM-17-301,
at *2 (D. Md. June 21, 2017).
Holzer, 816 F.2d at 307
Howard v. Scott, 225 Mo 685, 125 SW 1158 (1910)
Howard v. St. Germain, 599 F.3d 455 (5th Cir. 2010)
https://dictionary.law.com/Default.aspx?selected=599
Jackson v. Conway, 476 F.Supp. 896, 903 (E.D. Mo.
1979), aff&#39;d, 620 F.2d 680 (8th Cir. 1980)
In re Int'l Bus. Machines Corp. Sec. Litig.. 163 F.3d
102, 109 (2d Cir. 1998)
In re Met-L-Wood Corp., 861 F.2d at 1016
In re Razzi, 533 B.R. 469 (Bankr. E.D. Pa. 2015)

Xll

In re Rainbow Magazine, Inc., 77 F.3d 278 (9th Cir.
1996); Jove Engineering, Inc. v. I.R.S., 92 F.3d 1539
(11th Cir. 1996)
In re TMJ Litigation, 113 F.3d 1484, 1497 (8th
Cir. 1997)
In re Tri-Cran, Inc., 98 B.R. 609, 616 (Bankr. D.
Mass. 1989)
Jones v. Arnold. 359 Mo. 161, 167, 221 S.W.2d 187,
192 (1949)
46 Am. Jur. 2d Judgments § 516
KEETON ET AL., supra note 1, § 106, at 737
Kipperman v. Onex Corp., 260 F.R.D. 682 (N.D. Ga.
2009)
LeGrande v. Adecco, 233 F.R.D. 253, 63 Fed. R. Serv.
3d 1019 (N.D. N.Y. 2005)
Marable v. Alabama Mental Health Bd.. 297 F.
Supp. 291, 297-98 (M.D. Ala. 1969)
Martina Theatre Corp. v. Schine Chain Theatres,
Inc., 278 F.2d 798, 801 (2d Cir. 1960)
McNally v. United States. 483 U.S. 350 (1987)
Michelson, 141 B.R. at 728; see also, Apotex Corp. v.
Merck & Co., 507 F.3d 1357, 1360 (Fed.Cir.2007). In
re NWFX, Inc.. 384 B.R. 214, 220 (Bankr. W.D. Ark.
2008)
Micron Technology, Inc. v. Rambus Inc., 255 F.R.D.
135 (D. Del. 2009)
Missouri Rule 2-1.2
Missouri Court Rule 4-8.4
MODEL RULES OF PROF’L CONDUCT r. 3.3 (AM.
BAR ASS’N 1983)

Xlll

Murphy v. Board of Educ. of Rochester City School
Dist., 196 F.R.D. 220 (W.D. N.Y. 2000)
Natural Gas Pipeline Co. of America v. Energy
Gathering, Inc., 86 F.3d 464, 149 A.L.R. Fed. 793
(5th Cir. 1996).
Nazareth Int'l, Inc, v. J.C. Penney Corn.. No. CIV.A.
304CV1265M, 2005 WL 1704793, at *6 (N.D. Tex.
July 19, 2005).
Neitzke v. Williams, 490 U.S. 319, 324 ((1989)
New York Life Ins. Co. v. Nashville Trust Co., 200
Tenn. 513, 292 S.W.2d 749, 59 A.L.R.2d 1086 (1956)
Nottingham Patent Brick & Tile Co v Butler(1885)
LR 16 QBD
Nursing Home Pension Fund v. Oracle Corp., 254
F.R.D. 559 (N.D. Cal. 2008) LeGrande v. Adecco, 233
F.R.D. 253, 63 Fed. R. Serv. 3d 1019 (N.D. N.Y.
2005)
Oscar Chess v Williams [1957] 1 WLR 370
Packard v. K C One, Inc., 727 SW2d 435 (Mo.App.,
W.D. 1987)
Pankhania v Hackney London Borough [2002] NPC
123
Pegram v. Hebding, 667 So. 2d 696, 701-02 (Ala.
1995)
61A Am. Jur. 2d Pleading § 601
People ex rel. Gowdy v. Baltimore & Ohio R.R. Co.,
385 Ill. 86, 92, 52 N.E.2d 255 (1943).
Reeves v. Keesler, 921 S.W.2d 16, 21 (Mo.App.1996).
White v. Bowman. 304
Restatement, Second, Contracts, section 159

XIV

Rogers v. Bd. of Educ. of Prince George's Cnty.
United States District Court, D. Maryland. 859
F.Supp.2d 742 (D. Md. 2012)
Romano v. SLS Residential Inc., 253 F.R.D. 292
(S.D. N.Y. 2008)
Runfola & Associates, Inc. v. Spectrum Reporting II,
Inc., 88 F.3d 368, 35 Fed. R. Serv. 3d 434, 1996 FED
App. 0198P (6th Cir. 1996)
S.D. R. Prof. Conduct § 8.4(c)
S.W.3d 141, 149 (Mo. Ct. App. 2009)
Saabirah El v. City of New York, 300 Fed. App'x 103,
104 (2nd Cir. 2008)
Saldana v. Riddle, No. 98 C 2277, 1998 U.S. Dist.
LEXIS 9855, at *2 ((N.D. Ill. June 25, 1998)
Salmeron v. Enterprise Recovery Systems, Inc., 579
F.3d 787 (7th Cir. 2009)
Skidmore v. Back, 512 SW2d 223 (Mo.App. S.D.
1974)
Smith v Chadwick(1884) 9 App Cas 187
Spotts v. Spotts, supra, 55 S.W.2d 977, 983
State v. Fields, 366 SW2d 462 (Mo. 1963)
State v. Shaw, 847 S.W.2d 768 (Mo. banc 1993)
Steinlage v. Mayo Clinic Rochester, 235 F.R.D. 668,
64 Fed. R. Serv. 3d 918 (D. Minn. 2006)
Stranskv v. Cummins Engine Co.. 51 F.3d 1329,
1331 (7th Cir. 1995), as amended (Apr. 7, 1995)
Sutter v. Easterly, 354 Mo. 282 (Mo. 1945).
Texas, Galveston Division. October 1, 2004346
F.Supp.2d 907

XV

Thompson v. Ret. Plan for Employees of S.C.
Johnson & Sons, Inc., No. 07-CV-1047, 2008 WL
5377712, at *1 (E.D. Wis. Dec. 22, 2008).
Trustees of the Northwest Laundry & Dry Cleaners
Health & Welfare Trust Fund v. Burzynski, 27 F.3d
153, 157 (5th Cir.1994).
Trustees of Twin City Bricklayers Fringe Ben. Funds
v. Superior Waterproofing. Inc.. 450 F.3d 324, 331
(8th Cir. 2006)
U.S. v. Gaudin, 515 U.S. 506. 508-10, 115 S. Ct.
2310, 2313, 132 L. Ed. 2d 444 (1995)
U.S. v. Shaffer Equipment Co. United States Court
of Appeals, Fourth Circuit. December 9, 199311 F.3d
45037 ERC 207862 USLW 240424 Envtl. L. Rep. 20,
706

United States v. Allen, 892 F.2d 66, 67 (10th Cir.
1989)
United States v. Bishop, 825 F.2d 1278 (8th Cir.
1987)
United States v. deVegter, 198 F.3d 1324, 1328 (11th
Cir. 1999)
United States v. Holzer, 816 F.2d 304, 307 (7th Cir.
1987)
United States v. Horn. 29 F.3d 754, 759 (1st Cir.
1994).
United States v. Lueben, 838 F.2d 751, 754 (5th Cir.
1988);
United States v. Panarella, 277 F.3d 678, 696 (3d
Cir. 2002)
United States v. Sawyer, 85 F.3d 713, 733 n. 17 (1st
Cir.1996)

XVI

Vinson v. Vinson, 725 S.W.2d 121, 124
(Mo.App.1987)
Waller v. State, Dept, of Health and Welfare, 146
Idaho 234, 192 P.3d 1058 (2008)
Walker v. Walker, 280 S.W.3d 634, 636 (Mo. Ct. App.
2009)
Wilkes ex rel. Mason, 902 A.2d at 387 (citing Morris
v. Jones, 329 U.S. 545, 550-51, 67 S.Ct. 451, 91
L.Ed. 488 (1947)
Woodson v. Surgitek, Inc., 57 F.3d 1406 (5th Cir.
1995)

1
Opinions Below
For cases from Federal Court:
The Order and Opinion of the United States
Court of Appeals for the Eighth Circuit for this
case are Appendix A and the previous cases are
Appendices C and E. The United States District
Courts Orders for this case and a previous case
are Appendix B and D.
Jurisdiction
Petitioner filed Petition for Writs of Certiorari within
90 days after the 8^^ Circuit denying the petition for
rehearing pursuant to the rules 13.1 and under 28
U.S.C. section 1254 (1) for Judgment and Order of
the Eighth Circuit U.S. Court of Appeals entered on
12/18/2019 and 10/24/2019.
Constitutional and Statutory Provisions
Involved
Federal Rules of Civil Procedure Rule 11.
18 U.S. Code § 1001
Missouri 575.020. Concealing an offense
Title VI
See Appendix F

2

Statement of the Case
The case herein involves the Court of Appeals and
District Courts violating the Code of Judicial
Conduct by breaching duty of care, clear mandatory
reporting duties, allowing violations of rules and
laws, fraud on the Court, severe violations of
attorney Rules of Professional Conduct by
Government attorneys, as to very far depart from the
accepted and usual course of judicial proceeding and
is of such imperative importance as to call for an
exercise of this Court’s supervisory power.
Specifically, the Defendants asserted false claims,
which the Court allowed without evidentiary
support, that it had eleventh amendment immunity
when it had none to the Plaintiff discrimination
claims, because Title VI abrogated its eleventh
amendment immunity to discrimination claims.
The Defendants also falsely claimed exhaustion of
administrative remedy were required to the Plaintiff
discrimination claim when they weren’t, also due to
Title VI and without evidentiary support that it
wasn’t subject to Title VI, as the Defendants
affirmatively concealed and actively suppressed the
material fact it was subject to Title VI to
demonstrate clear conscious wrongdoing, [see Case
No. 4:ll-CV-02082 and Appellate Case: 13-2877],
After Plaintiff expose these false claims and
fraudulent arguments, the Defendants changed its
position and began falsely claiming it didn’t receive
any federal financial assistance for purposes of
employment, also without evidentiary support, as it
continued to actively conceal and suppress the
Material Facts that it was subject to Title VI,
including assurance compliance agreements it signed
agreeing to be compliant with Title VI, which would

3

have revealed it was subject to Title VI and expose
its false claims as false, while making additional
false claims and misrepresentations, [see Case: 4:15cv-00722-RLW and see Appellate Case: 16-1507].
Moreover, the Defendants attorney committed other
acts of misconduct mentioned below. The record
clearly shows Plaintiff can be seen reporting the
Defendants misconduct and the Court failing to take
appropriate action, rather, shows the multiple Court
rulings with the affect of the Court acting as an
accomplice and having an affect of enabling the
Defendants misconduct. Further, Eighth Circuit
U.S. Court of Appeals failure to take appropriate
action has allowed some of the Defendants
misconduct of concealing material facts and
misrepresentations to continue to this United States
Supreme Court in previous cases, with the affects of
the Defendants committing fraud upon it and giving
it reason to assume its Original Jurisdiction for acts
of fraud committed upon it. Lastly, the Missouri
Attorney General Office launched actions against the
Plaintiff involving government employees from
another state while the Plaintiff was residing in
another state, South Carolina, to create reason for
this Court to assume Original Jurisdiction pursuant
to 28 U.S.C. § 1251(b) for actions of a state against a
citizen of another state, since the Plaintiff is a citizen
of South Carolina and the actions was launched by
Missouri Attorney General Office, [see Case 2:18-cv04201-NKL and Appellate Case: 19-2341].

4

Facts Giving Rise to This Case
On November 30, 2011, Plaintiff, Myron Hubbard
filed his initial claim against St. Louis Psychiatric
Rehabilitation Center (SLPRC), Cause No. 4:11CV-02082, but amended his complaint in that
case adding Missouri Department of Mental
Health (DMH) as Defendants, since SLPRC is a
facility of DMH. Hubbard also amended his
complaint and added additional claims of racial
discrimination. The Defendants got the matter
dismissed through the before mentioned fraud on
the Court, before trial, before a full meaningful
hearing and opportunity to be heard and would be
allowed to prevail in the Court of Appeals, [see
Case No. 4:ll-CV-02082 and Appellate Case: 132877], The Plaintiff filed Case: 4:15-cv-00722RLW but Defendants got the matter dismissed
through the before mentioned fraud on the Court,
before trial, before a full meaningful hearing and
opportunity to be heard and would be allowed to
prevail in the Court of Appeals, [see Case: 4:15cv-00722-RLW and see Appellate Case: 16-1507].
The Plaintiff appealed in a Writ of Certiorari to
The United States Supreme Court, both in Case
No. 16-1226 and No. 13-10695, but the court
denied lastly May 30, 2017. The Plaintiff filed in
state Court but the Defendants moved to federal
Court Case 2:18-cv-04201-NKL and the
Defendants got the matter dismissed through
more fraud on the Court, before trial, before a full
meaningful hearing and opportunity to be heard
and would be allowed to prevail in the Court of
Appeals, [see Case 2:18-cv-04201-NKL and
Appellate Case: 19-2341],

5

REASONS WHY CERTIORARI SHOULD BE
GRANTED
Review is warranted, since the Court of
Appeals and District Courts breached its duty,
departed from the accepted and usual course of
judicial proceeding and is of such imperative
importance as to call for an exercise of this
Court’s supervisory power, in addition, the
Defendants committed Fraud Upon the Court
and the Petitioner is entitled to relief pursuant
to The Law of Void Judgments
While government employees covering up for
government employees isn’t unusual, the Eighth
Circuit U.S. Court of Appeals and District Court
have gone too far when it allows the violation of
rules and laws with the effect of contributing and
becoming a party to violations of rules and laws.
Fraud on the Court
The Plaintiff will demonstrate to this Court
that the Defendant’s attorney violated its duty of
care with false claims, misrepresentations and
nondisclosures, which were MATERIAL to the
Court’s judgment, made a difference to the outcome
and the Court played a role in ensuring the critical
material fact of the case remained suppressed,
allowed the Defendant’s misconduct and also
violated its duty of care as well.
We will go over the previous cases and state
specifically the MATERIAL FACTS the Defendants
concealed in each case, the FALSE claims, FALSE
statements and MISREPRESENTATIONS it made
in each case.

6
Cases 4:ll-cv-02082 and 0:13-cv-02877
When demonstrating the Defendant’s attorney
concealed the MATERIAL FACT that it was subject
to Title VI, concealed the MATERIAL FACTS
regarding the federal financial assistance it received,
concealed the assurance compliance agreements it
signed can easily be done by pointing to the Court
record, since the Defendants NEVER disclosed to the
Court nor admitted the basic MATERIAL FACT that
it was subject to Title VI, NEVER disclosed to the
Court the MATERIAL FACTS regarding the federal
financial assistance it received to signal to the Court
it was subject to Title VI, NEVER disclosed the
MATERIAL FACTS of the assurance compliance
agreements it signed to signal to the Court it was
subject to Title VI. [see entire Court record].
Further, the Defendants never disclosed the
MATERIAL FACTS it was subject to Title VI even
after the Plaintiff Motioned the Court to Compel
them to in a subsequent case where the Plaintiff
specifically motion to compel disclosure of all federal
assistance received, all federal financial assistance
used for the purpose of employment, all assurance
compliance and other agreement the defendants
signed agreeing to be compliant with Title VI, a
declaration from the Defendants stating whether or
not it was subject to Title VI and answer to
pleadings, albeit the Court denied the Plaintiff
motion, so the Defendants avoided being compelled
by the Court, as the Court played a role in ensuring
the critical material fact of the case remained
suppressed through its ruling. [Case 2:18-cv-04201NKL Doc. 25 Filed 03/22/19 and Doc. 31 Filed
5/6/19],

7
The Defendants are represented by the
Missouri Attorney General and Assistant Attorney
General. The Defendants attorney had an additional
duty to disclose, since they were Public officials with
a fiduciary duty to the public and have a duty to
provide honest services, as explained below.
Missouri recognizes the standard situations that
give rise to a duty to disclose, such as a fiduciary
duty, superior knowledge, and partial disclosure.
Constance v. B.B.C. Development Co., 25 S.W.3d 571
(Mo. Ct. App. W.D. 2000). § 2:7.Elements of fraud—
Representations: Actionable—Fraud in the absence
of representations, Law of Fraudulent Transactions
§ 2:7. Moreover, the Defendants attorney is a public
official that put forth an additional duty to disclose
material information. “A public official is a fiduciary
toward the public, ... and if he deliberately conceals
material information from them he is guilty of
fraud.” Holzer, 816 F.2d at 307; see also United
States v. deVegter, 198 F.3d 1324, 1328 (11th
Cir.1999) (“Public officials inherently owe a fiduciary
duty to the public....”); United States v. Sawyer, 85
F.3d 713, 733 n. 17 (1st Cir.1996). United States v.
Panarella. 277 F.3d 678, 696 (3d Cir. 2002). “Fraud
in its elementary common law sense of deceit. . .
includes the deliberate concealment of material
information in a setting of fiduciary obligation.”
United States v. Panarella. 277 F.3d 678. 695 (3d
Cir. 2002) (quoting United States v. Holzer. 816 F.2d
304, 307 (7th Cir. 1987). vacated and remanded for
consideration in light of McNally v. United States,
483 U.S. 350 (1987)). Courts typically find that the
source of a public official's duty to provide honest
services inheres in the official's fiduciary duty to the

8

public. See, e.g., United States v. Sawyer, 85 F.3d
713, 733 n.17 (1st Cir. 1996).
In the District Court and Court of Appeals the
Defendants made statements of, “Hubbard has not
asserted a claim under Title VI,” [Appellate Case:
13-2877 Page: 20
Date Filed: 11/20/2013] and,
“Plaintiff then recites multiple statutes involving
federal funding which he asserts waive Eleventh
Amendment immunities, none of which apply to his
claims” . . . “this Court does not have jurisdiction to
address this matter.” [Case: 4:ll-cv-02082-JAR
Doc. #: 76 Filed: 06/20/13 Page: 2 and 4 of 6],
which are FALSE and can easily been seen to be
false by simply looking at the record and the Title VI
manual, specifically documents 70 and 71 filed
6/3/13 and where the Plaintiff wrote, “This is an
action to vindicate violations of the Plaintiff job
protected, constitutional and civil rights and to
redress the unlawful, discriminatory conduct and
employment practices of the Defendants. This action
arises out of the illegal and wrongful discharge of
Myron Hubbard on 12/1/2008 subsequent to willful
violations of the Civil Rights Act of 1964 and,
therefore, violations of 42 U.S.C. 2000d et seq. 42
USC § 2000D-7C,” .... ’’COUNT ONE- WILLFUL
VIOLATIONS OF TITLE VI” [ Case: 4:ll-cv-02082JAR Doc. #: 70 Filed: 06/03/13 Page: 2 and 5 of
19]. The Plaintiff also wrote, “Title VI. . . prohibits
discrimination on the basis of race, color, and
national origin in programs and activities receiving
federal financial assistance.” [Case: 4:ll-cv-02082JAR Doc.#: 71 Filed: 06/03/13 Page: 3 of 7],
Here the record clearly demonstrates the Plaintiff
did assert a claim under Title VI which establishes
their statement, “Hubbard has not asserted a claim

9
under Title VI”, [see above] to be FALSE. The Title
VI laws and caselaw clearly establishes they clearly
do apply to his claim and the District Court had
jurisdiction, which demonstrates their statement of,
“Plaintiff then recites multiple statutes involving
federal funding, none of which apply to his claims”,
and , “this Court does not have jurisdiction to
address this matter” [see above and below] to be
FALSE as well, when it wrote the following and see
below regarding 11th amendment immunity:
The Supreme Court has established
that individuals have an implied
private right of action under Title VI
(and Title IX and Section 504). The
Court has stated that it has “no doubt
that Congress...understood Title VI as
authorizing an implied private right of
action for victims of illegal
discrimination.” See Cannon v.
University of Chicago, 441 U.S. 677
(1979)
https://www.iustice.gOv/sites/default/files/crt/legacv/2
011/06/23/vimanual.pdf
These false statements and misrepresentations had
the specific purpose and specific effect of obstructing
Title VI from being asserted by the Plaintiff and a
clear effort to actively suppress Title VI and evade
Title VI liability. When looking for any truth in the
statements there are none but examination reveals
the Court hand in suppressing the truth, since it
denied the Plaintiff amended pleading that contain
his assertion of Title VI, while a single act here, the
lengthy litigation would reveal a pattern to suppress

10
the truth and fact the Defendants were subject to
Title VI, in addition to the Defendants fraud on the
Court, by both Court of Appeals and the District
Court, since the District Court also denied the
Plaintiff Motion to Compel the Defendants to
disclose in a subsequent case where the Plaintiff
specifically motion to compel disclosure of all federal
assistance received and other material facts that
would reveal the Defendants were subject to Title
VI. [see above and see Case 2:18-cv-04201-NKL
Document 25 Filed 03/22/19 and Case 2:18-cv04201-NKL Document 31 Filed 05/06/19].
Another overt false statement the Defendants
made that can easily be proven to be false as the
Court record contradicts it again is when the
Defendants stated, “Hubbard has failed to allege
that he has exhausted his administrative remedies.”
[Case: 4:1 l-cv-02082-JAR Doc.#: 56 Filed: 2/21/13
Page: 9 of 11]. The Court record contradicts them
again as the Plaintiff wrote, “61. The plaintiff
attempted other administrative remedies and has
named the defendant in both an EEOC complaint
and United States Department of Labor complaint.
Its only after exhaustion of these remedies and
being referred to the courts by the United States
Department of Labor a claim was filed.” [Case: 4:11cv-02082-JAR Doc. #: 53-1 Filed: 10/29/12 Page:
9 of 11]. Here again we see the Defendants
statement of, “Hubbard does not claim that he
exhausted his administrative remedies,” to clearly be
FALSE and as explained below, exhaustion of
administrative remedies is not required under Title
VI. This further demonstrates the Defendants
reckless disregard for the truth and recklessly make

11
false statements that are easily proven FALSE by
the Court record.
We will now turn to the half-truth
misrepresentations. A duty to disclose arises when a
party “voluntarily discloses partial information but
fails to disclose the whole truth” or when a party
“makes a representation and fails to disclose new
information that makes the earlier representation
misleading or untrue.” See, e.g., Columbia/HCA
Healthcare Corp. v. Cottey, 72 S.W.3d 735, 744
(Tex.App.-Waco 2002, no writ). Blackmon v.
American Home Products Corp. United States
District Court, S.D. Texas, Galveston Division.
October 1, 2004346 F.Supp.2d 907. As soon as the
Defendants claimed 11th amendment immunity and
exhaustion of administrative remedy requirements
to the Plaintiff discrimination claims, it had a duty
to inform the Court of the whole truth of the relevant
information and material fact that it was subject to
Title VI to prevent making it’s representation
misleading or untrue, [see above].
Before we have a discussion on this United
States Department of Justice Title VI Legal Manual
on these arguments. We will first look at what’s the
truth part of their half truth misrepresentation. The
truth is states have 11th amendment immunity with
some exception and exhaustion of administrative
remedies is usually required for discrimination
complaints with some exception. One of these
exceptions is when a state receives Federal Financial
Assistance and are subject to Title VI since, “Simple
justice requires that public funds, to which all
taxpayers of all races contribute, not be spent in any
fashion which encourages, entrenches, subsidizes, or
results in racial discrimination.”

12
http s ://w ww. i ustice. gov/ sites/default/files/crt/legac v/ 2
011/06/23/vimanual.pdf
This United States Department of Justice
Title VI Legal Manual clearly establishes the
Defendants misrepresentations of, “All of plaintiff s
claims against defendants are barred by the
Eleventh Amendment to the United States
Constitution,” [Case: 4:1 l-cv-02082-JAR Doc.#: 55
Filed: 2/21/13 Page: 2 of 3] as FALSE and all
statements misrepresenting exhaustion of
administrative remedies is required as FALSE also,
when it wrote the following:
4. No Administrative Exhaustion
Requirement
There is no requirement that a plaintiff
exhaust administrative remedies prior
to bringing a private Title VI civil
action. See Fitzgerald v. Barnstable
Sch. Comm., 555 U.S. 246, 255 (2009). .
. . . Though Fitzgerald and Cannon
addressed Title IX, courts have applied
the same analysis to Title VI and
Section 504 claims and held that
litigants need not exhaust
administrative remedies prior to
bringing a Title VI claim in federal
court. See, e.g., Wade v. Knoxville Util.
Bd., 259 F.3d 452, 460 (6th Cir. 2001)
B. States Do Not Have Eleventh
Amendment Immunity under Title VI
In 1986, Congress enacted 42 U.S.C. §
2000d-7 ... to abrogate states’
immunity from suit for violations of

13
Section 504, Title VI, Title IX, the Age
Discrimination Act, and similar
nondiscrimination statutes. . . Section
2000d-7(a) states:
(1) A State shall not be immune under
the Eleventh Amendment of the
Constitution of the United States from
suit in Federal court for a violation of ...
title VI of the Civil Rights Act of 1964,
... or the provisions of any other
Federal statute prohibiting
discrimination by recipients of Federal
financial assistance.
https://www.iustice.gov/crt/case
document/file/934826/download
Now that we have established the falsity and
misleading portions of the Defendants
misrepresentations that, “All of plaintiff s claims
against defendants are barred by the Eleventh
Amendment to the United States Constitution,”
[Case: 4:1 l-cv-02082-JAR Doc.#: 55 Filed: 2/21/13
Page: 2 of 3] when they aren’t and all it statements
misrepresenting exhaustion of administrative
remedies was required when they were NOT, and
the Title VI manual proves it, we will now
demonstrate further the Defendants
misrepresentations were material. A material fact is
one which might affect the outcome of the case under
governing law. Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). The Court of Appeals and the
District Court included the Defendants
misrepresentations of exhaustion of administrative
remedies and 11th amendment immunity in their
Court Orders with the effect of demonstrating it was

14
influenced, mattered in their decision and showed
clear causality, as we will see the Defendants
statements and then both Courts showing it
mattered in their decision when the Defendants
wrote, “Hubbard does not claim that he exhausted
his administrative remedies”, . . .’’the Eleventh
Amendment acts as a complete jurisdictional bar to
all of Hubbard’s claims against it”. [Appellate Case:
13-2877 Pages: 17 and 19 Date Filed: 11/20/2013].
The Court of Appeals then wrote the following
showing clear influencing effect, “Hubbard did not
show he had exhausted administrative remedies “ . .
. “and the Eleventh Amendment barred Hubbard’s
other claims against defendants” [Appellate Case:
13-2877 Page: 2
Date Filed: 02/11/2014]. In the
District Court the Defendants wrote, “Plaintiff then
recites multiple statutes involving federal funding
which he asserts waive Eleventh Amendment
immunities, none of which apply to his claims.
[Case: 4:1 l-cv-02082-JAR Doc.#: 76 Filed:
06/20/13 Page: 2 of 6]. The District Court then
wrote showing the influencing effect when it wrote,
“Plaintiff sets forth a number of statutes involving
federal funding which he contends waive Eleventh
Amendment immunities. (Id., pp. 2-3) None of these
statutes apply to his claims.” [Case: 4:ll-cv-02082JAR Doc.#: 78 Filed: 08/12/13 Page: 6 of 7]. In
the District Court the Defendants wrote, “Plaintiff
failed to exhaust his federal administrative
remedies” . . .” However, he has not alleged or
presented any documentation that he properly and
timely filed a complaint with the EEOC and, nor has
he alleged that he has undergone the proper
procedures in order to proceed with his lawsuit.” . . .
“As such, this Court does not have jurisdiction to

15
address this matter.” [Case: 4:ll-cv-02082-JAR
Doc. #: 76 Filed: 06/20/13 Page: 4 of 6]. The
District Court then wrote showing influencing affect
when it wrote, “Plaintiff has not alleged, or
presented any documentation to show, that he
properly and timely filed a complaint with the
EEOC, nor has he alleged that he followed the
proper procedures to proceed with his lawsuit in this
Court. Generally, any claim that is not presented to
the agency may not be brought in federal court and
must be dismissed.” [Case: 4:ll-cv-02082-JAR Doc.
#: 78 Filed: 08/12/13 Page: 6 and 7 of 7]. Here it is
clearly seen the Defendants misrepresentations of
exhaustion of administrative remedies and 11th
amendment immunity were material to both the
Court of Appeals and District Court Orders, since
they both included the Defendants
misrepresentations in their Orders with the affect of
demonstrating it was influenced, showed clear
causality and demonstrates it doesn’t know the
Defendants were subject to Title VI, therefore,
showing the Defendants concealment and
suppressing the Plaintiff assertions of Title VI with
false statements had successful effects of influencing
and showed it based its ruling on the defendants
misrepresentations.
Case 4:15-cv-00722 and Appellate Case: 16-1507
In Case 4:15-cv-00722, the Defendants began
to demonstrate it knew it prevailed on fraudulent
arguments of exhaustion of administrative remedies
and 11th amendment immunity, as it would abandon
these fraudulent arguments and change its position
after it knew it had been discovered, similar to a

16
pathological liar changing his lie after he has been
caught, so the liar makes up another lie, the
Defendants similarly began to make up another lie
misrepresenting another false claim that it didn’t
use federal financial assistance for purpose of
employment, when it did, while continuing to
fraudulently conceal the MATERIAL FACT it was
subject to Title VI to once again BLOCK the
assertion of Title VI with the affect of influencing
and defrauding the Court again.
When demonstrating the Defendants
continued to conceal the MATERIAL FACT that it
was subject to Title VI and other MATERIAL
FACTS that would have signaled it was subject to
Title VI again we will simply point to the Court
record, which shows the Defendants NEVER
disclosed to the Court the MATERIAL FACT that it
was subject to Title VI or MATERIAL FACTS that
would have signaled it was subject to Title VI. [see
entire record]
Courts have ruled, “However, “[e]ven without
a special relationship, there is always a duty to
correct one's own prior false or misleading
statement.”” Trustees of the Northwest Laundry &
Dry Cleaners Health & Welfare Trust Fund v.
Burzynski, 27 F.3d 153, 157 (5th Cir.1994).
Nazareth Int'l, Inc, v. J.C. Penney Corn.. No. CIV.A.
304CV1265M, 2005 WL 1704793, at *6 (N.D. Tex.
July 19, 2005). When demonstrating the
Defendants never performed its duty to correct
misrepresentations can be done by simply pointing
to the record, since the Defendants NEVER
corrected its misrepresentations and FALSE
statements that it had 11th amendment immunity to
the Plaintiff discrimination claims and NEVER

17
corrected it misrepresentations of exhaustion of
administrative remedies were required nor did it
correct its misrepresentation to the Court of Appeals
that it didn’t receive federal financial assistance for
purposes of employment, [see Case 4:15-cv-00722
and Appellate Case: 16-1507 and entire Court record
from the before mentioned cases]
When demonstrating the Defendants false
claim that they misrepresented they didn’t use
federal funds for purpose of employment can easily
be done by pointing to the Court record, the evidence
in the Court record and mentioned below showing
they did use federal funds for purpose of employment
and their FALSE statement claiming they didn’t
when they wrote, “Hubbard has not alleged, nor can
he allege, that any federal funds received by
the Defendants were designed to provide
employment. Thus, Hubbard’s claim fails in this
regard.” [Case: 4:15-cv-00722-RLW Doc. #: 15 Filed:
07/13/15 Page: 7 of 10]. This statement clearly
misrepresents it didn’t receive any federal funds for
purposes of employment, which is easily proven false
by the evidence the Plaintiff submitted and the
Defendants later changing its position, which
signaled it knew the statement was FALSE but
failed to correct its misrepresentation, [see evidence
below showing they received federal funds for
purposes of employment and Case 2:18-cv-04201NKL Document 12-1 Filed 10/22/18 Pages 18 thru
25 100 and Document 12-2 Filed 10/22/18 Pages 14
thru 35 of 74],
When demonstrating the Defendant’s
misrepresentations of it didn’t use federal funds for
purpose of employment had an influencing affect can
easily be seen in the District Court ruling, since it

18
included the Defendants misrepresentation in its
order. The District Court wrote the Defendants
misrepresentation showing clear influencing effect,
when it wrote the following, “Defendants argue that
Plaintiffs claim should be dismissed because he has
not alleged, nor can he allege, that the federal
funds received by Defendants were designed to
provide employment.” [Case: 4:15-cv-00722-RLW
Doc. #: 35 Filed: 02/12/16 Page: 8 of 10]. The District
Court would also write demonstrating the
Defendants concealment of the MATERIAL FACT
that it was subject to Title VI and the Defendants
misrepresentation that it didn’t receive federal
financial assistance for purpose of employment were
effective at influencing the Court, since it can easily
be seen as it wrote demonstrating it doesn’t know
the Defendants were subject to Title VI when it
wrote the following:
Further, the Court finds that discovery would
not reveal that DMH's purpose is anything
other than the provision of mental health
services. Id. Indeed, DMH provides programs
for drug and alcohol abuse; mental illness; and
developmental disabilities. ... In addition,
while DMH does provide "employment
services" in its programs, these services are to
enhance "community employment options for
persons with developmental disabilities." . .
.’’The Court therefore finds that Plaintiff has
failed to state a claim for relief under Title VI
and his Amended Complaint should be
dismissed on that basis. [Case: 4:15-cv-00722RLW Doc. #: 35 Filed: 02/12/16 Page: 8
and 9 of 10].
The Court above statement makes it clear to any

19
reader it doesn’t know the Defendants were subject
to Title VI, which is the critical material fact of the
case, which blocks its ability to see the fraud in
procurement of judgment in the previous case,
allowed the Defendants to sustain its res judicata
arguments and allowed for Defendants to procure
another judgment by fraud on the Court, [see
above]. Further, the Court mistaken finding of fact
that the Defendants weren’t subject to Title VI, is
clear the Defendants concealment,
misrepresentations and its active suppression of the
Plaintiff assertions were material, as the Courts
demonstrates it doesn’t know the Defendants were
subject to Title VI.
Further, below we will show the Defendants
would change its position and stop pretending it
didn’t receive federal financial assistance for
purposes of employment, similar, how it stopped
pretending exhaustion of administrative remedies
was required and it had 11th amendment immunity
to the Plaintiff discrimination claims once it knew it
was discovered, as further evidence of conscious
wrongdoing. Moreover, the District Courts and
Court of Appeals specifically included the
Defendants false claims and false arguments in their
orders and can be seen clearly applying them to their
opinions to create clear causality in their resultant
opinion with the affect of establishing the judgments
were procured by fraud, [see above mentioned cases
Court orders]
In the Court of Appeals, the Plaintiff
discovered Defendants fraud after the District ruling
and motioned the Court of Appeals, “to present
newly discovered evidence to expose fraud”
[Appellate Case: 16-1507 Date Filed: 05/09/2016].

20

The Defendants continued to commit Fraud on the
Court, with the effects of procuring a judgment by
fraud. In the Court of Appeals, the Defendants
continued its misconduct of misrepresentations with
false statements and concealment of MATERIAL
FACTS that can easily be proven, the first of which
the Defendants blatantly FALSELY wrote,
“Contrary to Hubbard’s claims, neither Appellees nor
their attorneys concealed any information regarding
receipt of federal funds. [Appellate Case: 16-1507
Page: 17
Date Filed: 06/08/2016]. Here the falsity
of their statement can easily be proven by pointing
to the Court record, which clearly shows the
Defendants are clearly misrepresenting their
nondisclosure of MATERIAL FACTS, since the
Court records shows the Defendants never disclosed
any of the vital MATERIAL FACTS that it was
subject to Title VI nor any other MATERIAL FACTS
that would signal it was subject to Title VI. [see
entire record] Another overt FALSE statement of
the Defendants that can be easily exposed as FALSE
by simply pointing to the record, which contradicts
the Defendants statement of, “Moreover, Hubbard
does not and cannot argue that he relied on any
misleading representation on behalf of Appellees or
their attorneys.” [Appellate Case: 16-1507 Page: 17
Date Filed: 06/08/2016]. The Court record clearly
shows the Plaintiff did assert he relied on the
Defendants when he wrote, “The plaintiff relied on
the defendant not to commit fraudulent concealment
and responded and acted on its false assertions to
his detriment.” [Case: 4:15-cv-00722-RLW Doc. #: 16
Filed: 07/28/15 Page: 4 of 21]. So, the Defendants
statements of, “Hubbard does not and cannot argue
that he relied on any misleading representation", is

21
clearly FALSE, a blatant lie and the record proves
it. In the Court of Appeals the Defendants would
change its position since the Plaintiff was exposing
the Defendants used federal financial assistance for
purposes of employment in his motion to present
newly discovered evidence to expose fraud [Appellate
Case: 16-1507 Page: 13 - 18 Date Filed: 05/09/2016]
and was no longer falsely declaring it didn’t use
federal financial assistance for purposes of
employment, neither would it in the subsequent
case, instead, it began stating, “There is no evidence
that any federal funds received by the Appellees
were designed to provide employment.” [Appellate
Case: 16-1507 Page: 19 Date Filed:
06/08/2016]. Although its position change from
declaring it wasn’t using federal financial assistance
for purposes of employment to stating, “There is no
evidence that any federal funds received by the
Appellees were designed to provide employment”,
their statement is still FALSE and can easily be
proven FALSE by pointing to the Appellate Brief,
which clearly shows there was evidence the
Defendants received federal funds that provided
employment, therefore, their statement was another
blatant lie and another false statement, of which the
Defendants can clearly be seeing avoiding to answer,
provide any explanation for at this point nor provide
any proof or facts to rebut such evidence and
received assistance from the Court of Appeals, as it
denied the Plaintiff s motion to present newly
discovered evidence to expose fraud, with the affect
of evading to have to rule upon the evidence,
protecting the Defendants fraudulent acts,
preventing the Defendant’s fraud from being expose,
suppressing Title VI, protecting the Defendants res

22

judicata arguments, since judgments procured by
fraud are VOID and beginning to establish a pattern
of assisting and allowing the government attorney’s
misconduct. However, the Plaintiff s appellate brief
reports of fraud and misconduct, puts forth proof the
misconduct was reported to the Court of Appeals and
put forth an obligation for the Court to take
appropriate action as required by its Code of Judicial
Conduct. [Appellate Case: 16-1507 Page: 13 - 18
Date Filed: 05/09/2016]. All of the Defendants
misconduct that included its concealments of the
MATERIAL FACTS, FALSE statements, failures to
correct representation, violations of fiduciary duties
to the public and violations of duty to provide honest
services where all done by the Defendants to conceal
their liability to Title VI and conceal their Fraud
Upon the Court to sustain their res judicata
argument. Further as explained below, the
Defendants would demonstrate it didn’t believe that
it didn’t use federal financial assistance for purposes
of employment, that it fraudulently used to get the
case dismissed, as it would change their position
once again, to further demonstrate conscious
wrongdoing that it knew its representations were
FALSE but failed to correct them.
Case 2:18-cv-04201-NKL
When demonstrating the Defendants
continued to conceal the MATERIAL FACT that it
was subject to Title VI and all other relevant
MATERIAL FACTS that would expose it was subject
to Title VI and failed to correct its previous
misrepresentations it committed to acquire the prior
judgments, can easily be done by pointing to the

23

Court record, since the Defendants NEVER
corrected these misrepresentations and NEVER
disclosed to the Court the MATERIAL FACT that it
was subject to Title VI nor other relevant
MATERIAL FACTS, that would have exposed it was
subject to Title VI. [see entire record].
In Case 2:18-cv-04201-NKL, the Plaintiff
asserted factual evidence demonstrating the
Defendants received federal financial assistance
with purpose of employment, all of which the
Defendants failed to deny receiving. The Plaintiff
showed some examples of how ultimate beneficiaries
were being harmed and affected and was included in
the Plaintiff pleadings, of which the Defendants
failed to deny, when he explained the discrimination
and refusing to hire black male nurses was creating
a staffing shortage, “affecting both nurses and
patients, thereby, intended beneficiaries. “ So in
addition to the Plaintiff evidence showing, the
Defendants acquired federal financial assistance for
employment purposes, the Plaintiff demonstrated
the Defendants were also subject to Title VI, since
its discriminatory employment practices were
negatively affecting the delivery of services to
ultimate beneficiaries, of which it failed to deny.
Further, the Defendants failed to deny each specific
paragraph from the Plaintiff pleading, instead,
offered false claims and arguments, [see below] and
[see the Plaintiff evidence Case 2:18-cv-04201-NKL
Document 12-1 Filed 10/22/18 Pages 18 thru 25 100
and Document 12-2 Filed 10/22/18 Pages 14 thru 35
of 74]
When demonstrating the Defendants
suppressed the Plaintiff evidence and actively
suppressed the Plaintiff attempts of exposing the

24

Defendants were subject to Title VI with FALSE
statements, misrepresentations and FALSELY
stated the law regarding Title VI. We will simply
look at the Court record, the Defendants FALSE
statements, misrepresentations, the Title VI manual
and case law. In case 2:18-cv-04201-NKL the
Defendants abandoned its previous
misrepresentations of 11th amendment immunity,
exhaustion of administrative remedy requirements
and they didn’t receive federal financial assistance
for purpose of employment and began to pretend the
purpose of the recipient matters when it stated the
following:
The "primary purpose" of Defendant, the
Missouri Department of Mental Health, is to
administer, maintain, and develop facilities
and services for persons affected by mental
disorders, developmental disabilities, and
alcohol or drug abuse. . . . The purpose of
DMH is not to provide employment for those
nurses, and his claim fails in this regard.
[Case 2:18-cv-04201-NKL Document 11
Filed 10/22/18 Page 8 of 10]
As clear misrepresentation of the law, since the
factors involved don’t include the purpose of the
recipient, rather, the two primary elements are
discrimination and the entity engaging in
discrimination is receiving federal financial
assistance, as already stated by the Court, the law,
[see Title VI manual] and case law. The two
elements for establishing a cause of action pursuant
to Title VI are (1) that there is racial or national
origin discrimination and (2) the entity engaging in
discrimination is receiving federal financial

25

assistance. Jackson v. Conway, 476 F.Supp. 896, 903
(E.D. Mo. 1979), aff&#39;d, 620 F.2d 680 (8th Cir.
1980).
When demonstrating the Defendants failed to
answer the specific paragraphs of FACTUAL
ALLEGATIONS of the Plaintiffs pleadings with the
affect of failing to admit the basic fact it was subject
to Title VI and other basic MATERIAL FACTS of
the case and the Court record shows it NEVER
disclosed the MATERIAL FACT that it was subject
to Title VI. [see Case 2:18-cv-04201-NKL], Instead,
the Defendants filed a motion to dismiss with the
following FALSE STATEMENTS to actively
suppress the Plaintiff evidence and assertions of
Title VI:
Even assuming Hubbard’s allegations that
DMH accepted federal funds as true, none can
save his Title VI claim. . . .The NLRP’s
purpose is to forgive student loans. . . .Lastly,
the ARRA, a stimulus bill, funds a variety of
projects and encourages economic recovery.
Business Commc’ns, Inc. v. U.S. Dept, of
Educ., 739 F.3d 374, 376 (8th Cir. 2013).
Whether the ARRA had a benefit of increasing
employment levels, does not mean that its
specific purpose is to provide employment.
Nelson, 873 F.Supp.2d at 1115; see also
Martin, 704 F.Supp. 2d at 234. [Case 2:18-cv04201-NKL Document 13 Filed 11/05/18
Page 6 and 7 of 8]
As seen above, the Defendants statements are
without any supporting evidentiary facts, as the
Defendants did NOT support their attorney, perjure

26
themselves and declare they weren’t subject to Title
VI in any affidavits, instead, the Defendants
attorney sites 3 cases above but fabricates the
caselaw in two and misleads in the other, which we
will easily demonstrate misrepresents and misleads.
When demonstrating the Defendants has fabricated
misleading case law we will simply look at their
statement and then the case law they cited. The
Defendants wrote, “Whether the ARRA had a benefit
of increasing employment levels, does not mean that
its specific purpose is to provide employment.
Nelson, 873 F.Supp.2d at 1115; see also Martin, 704
F.Supp. 2d at 234.” [Case 2:18-cv-04201-NKL
Document 13 Filed 11/05/18 Page 6 and 7 of 8].
Neither of the case law the Defendants cited, Nelson
nor Martin in the Federal Supplements, mentions
the ARRA, therefore, is misleading, misrepresents
and is completely irrelevant to whether ARRA
intitles a Title VI claim. Rather than using case law
that states whether ARRA entitles a Title VI claim,
the Defendants uses case law that doesn’t state
whether or not ARRA entitles a Title VI claim nor
does it even mention ARRA and attaches it to its
remark about ARRA, misrepresenting it supports it.
The other caselaw they mention, Business
Commc’ns, Inc. v. U.S. Dept, of Educ, is also
irrelevant and meant to mislead, since it’s a
description of the ARRA, not the purpose of the
ARRA. The Plaintiff provided case law and evidence
that clearly showed the Defendants received federal
funds from The American Recovery and
Reinvestment Act (ARRA), which stated its purpose
is to create jobs and provided case law stating such
in Rogers v. Bd. of Educ. of Prince George's Cnty.
United States District Court, D. Maryland. 859

27

F.Supp.2d 742 (D. Md. 2012), and provided the
former Governor of Missouri, Jeremiah Nixon
Executive Order 09-12, where it also stated
“purposes” of ARRA were to preserve and create jobs
and promote economic recovery. [Case 2:18-cv04201-NKL Document 12-1 Filed 10/22/18 Page
18 and 19 of 100]. Therefore, the Defendants
statements of, “Whether the ARRA had a benefit of
increasing employment levels, does not mean that its
specific purpose is to provide employment,” [Case
2:18-cv-04201-NKL Document 13 Filed 11/05/18
Page 6 and 7 of 8] is a misrepresentation and the
former governor Executive Order 09-12 and case law
proves so.
Another statement easily proven to be FALSE
is when the Defendants wrote, “The NLRP’s purpose
is to forgive student loans.” [see above and Case
2:18-cv-04201-NKL Document 13 Filed 11/05/18
Page 6 of 8]. Here the Defendants shows no
restraint, blatantly lies about the purpose of the
NLRP and fabricates a purpose for the NLRP. This
can easily be proven to be FALSE, since the NLRP
specifically states its purpose and the Plaintiff
provided it in his evidence when they wrote,
“purpose of the NURSE Corps Loan Repayment
Program (NURSE Corps LRP) is to assist in the
recruitment and retention of professional
Registered Nurses (RNs),”JUase 2:18-cv-04201NKL Document 12-1 Filed 10/22/18 Page 23 of
100]. Further, The United States Department of
Health and Human Services requires recipients
legally certify themselves to be compliant with Title
VI nondiscrimination mandate through assurance
compliance agreements they sign as a requirement
imposed by or pursuant to the Regulation of the

28

Department of Health and Human Services (45
C.F.R. Part 80), specifically, the Defendant’s
Department Director, Mark Stringer signed the
Chief Executive Officer’s Funding AgreementCertifications and Assurances with the U.S.
Department of Health and Human Services stating
the Defendants, “Will comply with all Federal
statutes relating to nondiscrimination. These
include but are not limited to: (a) Title VI of the Civil
Rights Act of 1964” [Case 2:18-cv-04201-NKL
Document 12-2 Filed 10/22/18 Page 29 and 31], so
recipients aren’t ignorant they are subject to Title
VI, rather, are informed and have been given clear
NOTICE, as further proof their conduct were
intentional.
The Defendants failed to answer the Plaintiff
specific paragraphs of factual allegations in his
pleadings, even after the Plaintiff filed a motion to
compel them to [Doc. 25] and should have face the
rule of failure to deny operates as an admission. Fed.
R. Civ. P. 8(b)(6) (effect of failing to deny), which was
consisted with its scheme to conceal the MATERIAL
FACT it was subject to Title VI, conceal its offenses
and conceal the judgments it procured by FRAUD.
[Case 2:18-cv-04201-NKL]
Now that we have discussed the Defendants
Fraud on the Court, we will discuss its affects on
judgments, how the Court of Appeals and District
Court breached its duty, departed from the accepted
and usual course of judicial proceeding and why the
Plaintiff is entitled to relief pursuant to The Law of
Void Judgments. If the judgment was in fact
procured by fraud and collusion, as charged, the
fraud vitiated the whole proceeding and the
defendants are entitled to equitable relief. Jones v.

29
Arnold. 359 Mo. 161, 166, 221 S.W.2d 187, 191
(1949). Res judicata consequences will not be
applied to a void judgment which is one which, from
its inception, is a complete nullity and without legal
effect, Allcock v. Allcock, 437 N.E.2d 392 (Ill.App.3
Dist. 1982). Further since the order has no legal
force or effect, it can be repeatedly challenged, since
no judge has the lawful authority to make a void
order valid. Bates v. Board of Education, Allendale
Community Consolidated School District No. 17, 136
Ill.2d 260, 267 (1990) (a court "cannot confer
jurisdiction where none existed and cannot make a
void proceeding valid."); People ex rel. Gowdy v.
Baltimore & Ohio R.R. Co., 385 Ill. 86, 92, 52 N.E.2d
255 (1943).
The issue here is fraud in the procurement of
the judgments the Defendants received, which
makes them VOID, as stated above, so we will
discuss the parts, both the Defendants and District
Court, omitted from their arguments and opinion,
the other halves of their half truths, which can be
seen to be deliberate and creating
misrepresentation.
When looking at the Defendants
representations of res judicata arguments the
Defendants wrote, “However, a review Hubbard’s
claims points to allegations of fraud, which has
previously been adjudicated.” . . .” Therefore, the
doctrine of res judicata bars Hubbard’s claim”. [Case
2:18-cv-04201-NKL Document 13 Filed 11/05/18
Page 2 and 3 of 8]. The District Court showed the
Defendants influencing effect when it wrote the
following, “Therefore, Mr. Hubbard’s allegations
regarding fraud have already been adjudicated and
are barred by res judicata. [Case 2:18-cv-04201-NKL

30

Document 14 Filed 12/19/18 Page 4 of 6]. Neither
the Defendant nor the Court tells the whole truth. It
is equally true that the principle of res judicata may
not be invoked to sustain fraud, and that a judgment
obtained by fraud or collusion may not be used as a
basis for the application of the doctrine of res
judicata. Grummons v. Zollinger, 240 F. Supp. 63,
75 (N.D. Ind. 1964), affd. 341 F.2d 464 (7th Cir.
1965). While res judicata may prevent relitigating of
claims that have already been adjudicated, it doesn’t
preclude judgments “obtained by fraud or collusion.”
Indeed, the Plaintiff is unable to find any case law
saying such a ridiculous notion. In other words, if
fraud on the Court occurred in the initial case, the
wrongdoer can’t simply do it again and procure
another judgment by fraud and assert the fraud has
already been adjudicated. At some point the
wrongdoer have to obtain a valid judgment free of
fraud, which will have preclusive effects, not
judgments procured by fraud, [see above case law].
Moreover, Judge Laughrey quotes Judge White case
law but omits and removes the portion regarding
fraud as evidence she knows fraud nullifies her
statement and evidence of conscious wrongdoing.
Specifically, Judge Laughrey wrote, ““newly
discovered evidence does not preclude the
application of res judicata unless the evidence . . .
could not have been discovered with due diligence.”
Id. at * 3 (quoting Saabirah El v. City of New York,
300 Fed. App’x 103, 104 (2nd Cir. 2008)), [see Case
2:18-cv-04201-NKL Document 14 Filed 12/19/18
Page 4 of 6], notice her quote doesn’t contain
anything about fraud, that’s because she removed it,
since Judge White and the case law she was quoting
actually said, “ "As a general rule, newly discovered

31
evidence does not preclude the application of res
judicata unless the evidence was either
fraudulently concealed or could not have been
discovered with due diligence." Saabirah El v. City of
New York, 300 Fed. App'x 103, 104 (2nd Cir. 2008)
(citation omitted). [Case: 4:15-cv-00722-RLW Doc. #:
35 Filed: 02/12/16 Page: 5 of 10].
Missouri Rule 2-1.2 Promoting Confidence in
the Judiciary states the following:
A judge shall act at all times in a manner that
promotes public confidence in the
independence, integrity, and impartiality of
the judiciary, and shall avoid impropriety and
the appearance of impropriety." . . .” Actual
improprieties under this standard include
violations of law, court rules or provisions of
this code. ”
Below we will discuss the Court of Appeals and
District Court allowance of the Defendants violations
of law and Court rules.
Duty of care- a requirement that a person act toward
others and the public with the watchfulness,
attention, caution and prudence that a reasonable
person in the circumstances would use.
https://dictionary.law.com/Default.aspx?selected=599
When demonstrating the Court of Appeals,
District Court and Defendant’s government attorney
breached its duty of care can easily be done by
pointing to the Defendants attorney acts of fraud on
the Court, as explained above, that included
violations of law and court rules, specifically,
Missouri Court Rule 4-8.4 Misconduct and 18 U.S.
Code §1001 and the Court breaching its duty of care
in allowing the Defendant attorney acts of

32

concealments, fraudulent statements and
misrepresentations in a federal Court, which are
violations of 18 U.S. Code §1001, as evidence by the
Court record, that shows the Court fail to take
appropriate action nor any action, [see above and
entire Court record].
The Court of Appeal and District Court
allowing the violation of Rule 11 for the Defendants
factually unsupported false claims to the Court. “The
court must, however, also abide by the "affirmative
obligation of the trial judge to prevent factually
unsupported . . . defenses from proceeding Hines v.
Foxwell, CIVIL ACTION No. JFM-17-301, at *2 (D.
Md. June 21, 2017). Indeed, the Defendants
attorney false claims were permitted to prevail, in
part, since the Court allowed them to go
unsupported, while Rule 11 requires for “factual
contentions have evidentiary support or . . . will
likely have evidentiary support”, of which the
Defendants provided none, since their contentions
were false, even after the Plaintiff motioned to
compel disclosure. [Case 2:18-cv-04201-NKL
Document 25 Filed 03/22/19], Both the Court of
Appeals and District Court can be seen allowing the
Defendants false claims and statements of it had
11th amendment immunity to the Plaintiff
discrimination claims when it didn’t, exhaustion of
administrative remedies were required to the
Plaintiff discriminations claims when they weren’t,
that it didn’t receive federal financial assistance for
purpose of employment when it did, all asserted by
the Defendants attorney, which she NEVER
provided ANY evidentiary support from the
Defendants in the form of declarations, certifications
nor affidavits supporting such claims nor could she

33

since they were FALSE nor did the Court of Appeals
and District Court require her to, even after the
Plaintiff filed a motion to compel them to, rather,
they denied the Plaintiff motion to compel. [Case
2:18-cv-04201-NKL Document 31 Filed 05/06/19].
This United States Supreme Court has
written the following:
If the court below neglects or refuses to make
a finding one way or the other as to the
existence of a material fact, which has been
established by uncontradicted evidence, or if it
finds such a fact when not supported by any
evidence whatever, and an exception be taken,
the question may be brought up for review in
that particular.
Alexandre v. Machan. 147 U.S. 72, 77, 13 S.
Ct. 211, 213, 37 L. Ed. 84 (1893)
Both the Court of Appeals and the District Court
neglectfully failed to find a finding of facts of the
material facts of the new evidence presented by the
Plaintiff that exposes the Defendants were subject
to Title VI, but gave a finding of fact before the new
evidence, based on the Defendants
misrepresentation that they didn’t receive federal
funds for purposes of employment, with the affect of
preventing itself from determining the Defendants
fraud on the Court, even after the Plaintiff
specifically, motioned the Court of Appeals for
findings of facts. [Appellate Case: 19-2341
Page: 1
Date Filed: 11/01/2019]. Which allows it to have
plausible denying ability, in part, to the Defendants
fraud, but since the Defendants concealment and

34

misconduct went on for approx. 8 years most
reasonable peers would consider it affirmative
misconduct, and the Court of Appeals and District
Court responsible.
The District Court allowed the prohibited
participation of the Government attorney that
violated the law, court rules and committed acts of
misconduct, when Court rules and her rules of her
profession says she can’t. Specifically, Rule 4-3.7
and Rule 4-1.7. The Plaintiff wrote the following,
“the Defendant’s agent that is being alleged to
have committed fraud upon the Court, therefore,
has personal interest, since she can be found
criminally, civilly and professionally liable. She
is also a witness in this case. She also has strong
motive to sabotage the administration of justice
to save herself. Rule 4-3.7 for Lawyer as Witness
states the following:
' (a) A lawyer shall not act as advocate at a trial in
which the lawyer is likely to be a necessary
witness,”. . . “Rule 4-1.7 Conflict of Interest” . .
.”a lawyer shall not represent a client if the
representation involves a concurrent conflict
of interest.” A concurrent conflict of interest
exist” . . . .“by a personal interest of the
lawyer.” [Case 2:18-cv-04201-NKL
Document 16 Filed 01/15/19 Page 18 of 26]
The Court failed to enforce Rule 8 and require
a response from the Defendants even after the
Plaintiff specifically motioned to, “Compel an
answer to Pleadings for the Case Herein,” [Case
2:18-cv-04201-NKL Document 25 Filed
03/22/19 Page 1 of 22] nor enforce its provision
of failure to deny [see above] with the affects of

35

concealing their offenses and fraud on the
court,violating 575.020.
U.S. Code for Judges state:
3 (B)(6) “A judge should take appropriate
action upon receipt of reliable information
indicating the likelihood that. . . a lawyer
violated applicable rules of professional
conduct.” https://www.uscourts.gov/iudgesiudgeships/code-conduct-united-statesjudges
In demonstrating the Court of Appeals and District
Court failed to take appropriate action, we will
simply point to the record, which shows it failed to
take appropriate action nor any action, rather, aided
the misconduct as explained above, [see entire
record]
The United States Supreme Court should
assume Original Jurisdiction for misconduct
committed upon it and pursuant 28 U.S. Code §
1251 for state attorneys taking adverse
retaliatory actions against a citizen in another
state
Jurisdiction commonly arises where “the
crime occurred” and, since the Court of Appeals
failed to take appropriate action it allowed the
Defendants acts of concealing MATERIAL FACTS,
misrepresentations, failing to correct
misrepresentations and other acts of fraud on the
Court to continue to this United States Supreme
Court in U.S. Supreme Court cases No. 16-1226 and
No. 13-10695, allowing it to assume original
jurisdiction over misconduct committed upon it.

36
28 U.S.C. § 1251(b) states the following, The
Supreme Court shall have original but not exclusive
jurisdiction of: . . . All actions or proceedings by a
State against the citizens of another State or against
aliens. The Plaintiff also set forth in his pleadings
[see Docs. 12-1 and 12-2] retaliation acts after and
during his protected act of his discrimination filing,
where the Defendants attorney’s office, the Missouri
Attorney General, who never became involves in the
Plaintiffs child support matters, as evidence they
were never involved in his son’s child support case,
which was before his discrimination filing, which
was completely paid in full and closed without
involvement of the Missouri Attorney General Office,
but became involved in his open matter, after the
Plaintiff s protected act of his discrimination claim
and launched actions against the Plaintiff while he
was in another state using a government South
Carolina employee, who violated South Carolina
state perjury laws by putting false information on
state forms lying that the Plaintiff had a salary and
about his earnings, then the Missouri Attorney
General submitted the false evidence in a Missouri
Court, thereby, violating further state and federal
law. [See Case 2:18-cv-04201-NKL Doc.12-1 and
Doc. 12-2], Simultaneously, the other government
employees where creating an immensely hostile
work environment with profanity and the usage of
the word NIGGER in the work place, but when the
Plaintiff reported them to the EEOC, they increased
the number of shifts they were giving him, thereby,
his pay and the hostile work environment
diminished, as clear evidence of conscious wrong
doing. For Missouri government attorneys actions
against the Plaintiff, who is a citizen of another

37

state, an additional cause for this Supreme Court to
assume its original jurisdiction pursuant to 28
U.S.C. § 1251(b) has been sustained.
Conclusion
For the foregoing reasons, the Plaintiff respectfully
request that this Court issue a writ of Certiorari and
assume its Original Jurisdictions.
Respectfully,
Myron Hubbard
211 Brooks Pines Dr Apt 12108
Columbia, SC 29210
314.324.1274
humanitariansl@gmail.com

